( t­
"+
  '+
   .ll'''��JG
~""~i"avic..."..
                         DEPARTMENT OF HEALTH &.
                         DEPARTMENT           &.HUMAN
                                                 HUMAN SERVICES
                                                       SERVICES                                                        Offce of
                                                                                                                       Office of Inspector
                                                                                                                                 Inspector General

                                                                                                                       Washington,
                                                                                                                       Washington, D.C.
                                                                                                                                           General

                                                                                                                                   D.C. 20201
                                                                                                                                         20201




                                                                      SEP
                                                                      SEP -- 9 2008
                                                                             9 2008




             TO:
             TO:                Kerry Weems
                                Kerry Weems
                                Acting Administrator
                                Acting  Administrator
                                Centers for
                                Centers for Medicare
                                            Medicare && Medicaid Services


             FROM:                  Levinson~
                                Daniel         ~. ~
                                       R. LevinsonÅ.
                                Daniel R.            ß. ~
                                Inspector General
                                Inspector


             SUBJECT:           Review of Medicare Contractor Information Security Program Evaluations for
                                Fiscal Year 2005 (A-18-06-02600)


             The attached final report presents the results of                of our Medicare Contractor Information Security
             Program evaluations for fiscal year (FY)               (FY) 2005.
                                                                          2005. Our
                                                                                 Our objectives
                                                                                      objectives were to
                                                                                                       to (1) assess the scope and
             sufficiency
             sufficiency of 
   of Medicare contractor information security program evaluations and data center
             technical assessments
             techncal assessments and (2) report and    (2) ofreport the results of those evaluations and assessments.
                                                 the results




            The Medicare Prescription Drug, Improvement, and Modernization Act of                                  of 2003 added
            information
            information security security requirements
                                                requirements for Medicare fiscal intermediares  intermediaries and
                                                                                                                and carrers
                                                                                                                    carriers to
                                                                                                                             to section
                                                                                                                                section
             1874A ofthe
             1874A        ofthe Social SecuritySecurity Act   Act (the
                                                                     (theAct)Act)(42 (42U.S.c.
                                                                                          D.S.C.§§1395kk:-l).
                                                                                                     1395kk-l). These
                                                                                                                These contractors
                                                                                                                       contractorsprocess
                                                                                                                                    process
            and pay Medicare fee-for-service claims. Pursuant to section 1874A(e) of the Act, each
            and pay  Medicare fee-for-service  claims. Pursuant to section 1874A(e) of


            Medicare contractor must have                have itsits information
                                                                      information security
                                                                                         securityprogram
                                                                                                   programevaluated
                                                                                                            evaluatedannually
                                                                                                                       anually by an
            independent entity. Section        Section 1874A(e) requires that these evaluations address the eight major
                                                           1874A(e)        requires     that these  evaluations address
            requirements enumerated in the Federal                 Federal Information
                                                                               Information Security
                                                                                               Securty Management Act (FISMA).
                                                                                                                           (FISMA). (See
                                                                                                                                       (See
            44 U.S.C. § 3544(b).) To comply with this provision, the Centers for Medicare & Medicaid
            44 U.S.C.  § 3544(b).) To comply 


            Services (CMS) contracted with PricewaterhouseCoopers to evaluate information security
            programs
            programs  at 
    at the intermediaries and carrers        carriersusingusingaaset
                                                                                             setof
                                                                                                ofagreed-upon
                                                                                                    agreed-upon procedures.
                                                                                                                 procedures.

            Section I 874A(e)
             Section i    874A(e)    also requires
                               also requires               of 
 evaluation of the information security controls for a subset of
                                             an evaluation an

            systems but does not specify the criteria for these evaluations. To              To satisfy
                                                                                                 satisfythese
                                                                                                         these requirements,
                                                                                                               requirements,
            CMS contracted
                      contracted with
                                    withJANUSJANS Associates,          Inc. (JANS),   to perform  technical  assessments.
                                                         Associates, Inc. (JANUS), to perform technical assessments.
            Subsequently, CMS developed  developed aa vulnerability
                                                             vulnerability testing
                                                                            testing methodology
                                                                                    methodology for the
                                                                                                      the assessments
                                                                                                           assessments to
                                                                                                                       to test
                                                                                                                          test
            segments of
            segments of 
    the  claims      processing        systems at Medicare   data centers. Data  centers operate the
                                                                                           centers. Data centers operate the
            computer
            computer systems
                           systems that
                                      that process
                                             process and  and paypay Medicare
                                                                     Medicare claims.
                                                                                claims.

            Section
            Section       1874A(e)
                    1874A(e)              further
                             further requires         requires
                                              the Inspector General,the   Inspector
                                                                     Departent of   General, Department ofHealth
                                                                                                              Health and
                                                                                                                     and Human
                                                                                                                          Human
            Services,
            Services, to submit to Congress annual reports on the results of these evaluations, as well
                            to  submit      to  Congress       annual      reports on the results of these evaluations, as well as
                                                                                                                                as their
                                                                                                                                    their
            scope
            scope      and sufficiency.
                  and suffciency.                 This
                                  This report fulfills thatreport    fulfills that responsibility for
                                                            responsibility                        for FY
                                                                                                      FY 2005.
                                                                                                          2005.
Page 2 – Kerry Weems


The scope and sufficiency of the contractor information security program evaluations performed
by PricewaterhouseCoopers adequately encompassed the eight FISMA requirements referenced
in section 1874A(e)(1). While CMS’s contract with JANUS provided for the planning,
development, and implementation of a comprehensive program to perform security testing, we
could not determine the scope or sufficiency of the work for the data center technical
assessments because we could not determine the extent of JANUS’s work.

We recommend that CMS review contractor documentation related to future data center
technical assessments and ensure that contractor documentation complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that appointed
contractors have specified the testing procedures to be performed and a review of contractor
working papers to verify that reported weaknesses have been adequately supported, identified,
and included in the technical assessment reports.

In written comments to our draft report, CMS concurred with our recommendation. CMS
actions planned or taken should improve the effectiveness of information security controls
maintained by contractors that determine and make Medicare claims payments. CMS also
provided clarifying information on technical issues that we used to modify our report where
appropriate.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this
report will be posted on the Internet at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or have your staff contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-18-06-02600 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF MEDICARE
 CONTRACTOR INFORMATION
     SECURITY PROGRAM
EVALUATIONS FOR FISCAL YEAR
           2005




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-18-06-02600
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare fiscal intermediaries and carriers to section
1874A of the Social Security Act (the Act) (42 U.S.C. § 1395kk-1). These contractors process
and pay Medicare fee-for-service claims. Pursuant to section 1874A(e) of the Act, each
Medicare contractor must have its information security program evaluated annually by an
independent entity. Section 1874A(e) requires that these evaluations address the eight major
requirements enumerated in the Federal Information Security Management Act (FISMA). (See
44 U.S.C. § 3544(b).) To comply with this provision, the Centers for Medicare & Medicaid
Services (CMS) contracted with PricewaterhouseCoopers to evaluate information security
programs at the intermediaries and carriers using a set of agreed-upon procedures.

Section 1874A(e) of the Act also requires an evaluation of the information security controls for a
subset of systems but does not specify the criteria for these evaluations. To satisfy these
requirements, CMS contracted with JANUS Associates, Inc., (JANUS) to perform technical
assessments. Subsequently, CMS developed a vulnerability testing methodology for the
assessments to test segments of the claims processing systems at Medicare data centers. Data
centers operate the computer systems that process and pay Medicare claims.

Section 1874A(e) further requires the Inspector General, Department of Health and Human
Services, to submit to Congress annual reports on the results of these evaluations, as well as their
scope and sufficiency. This report fulfills that responsibility for fiscal year (FY) 2005.

OBJECTIVES

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

SUMMARY OF RESULTS

Assessment of Scope and Sufficiency

The scope and sufficiency of the contractor information security program evaluations performed
by PricewaterhouseCoopers adequately encompassed the eight FISMA requirements referenced
in section 1874A(e)(1) of the Act.

While CMS’s contract with JANUS provided for the planning, development, and implementation
of a comprehensive program to perform testing of security, we could not determine the scope or
sufficiency of the work for the data center technical assessments because we could not determine
the extent of JANUS’s work.




                                                 i
During our review of the data center technical assessments, CMS provided us with copies of a
task order and contract governing JANUS’s work at the data centers. However, the
documentation supplied by JANUS did not provide evidence of the testing procedures that were
performed at the data centers. During our assessment, we reviewed working papers to verify that
reported results were reasonably supported. The working papers provided to document testing
procedures were not complete. For test plans provided, the working papers sometimes did not
indicate whether JANUS had completed all test plan procedures. Also, cross-references to
supporting documentation were missing for many test procedures.

Results of Evaluations and Assessments

The results of the contractor information security program evaluations and data center technical
assessments are presented in terms of gaps, that is, the differences between FISMA or CMS core
security requirements and the contractors’ implementation of those requirements.

Results of Contractor Information Security Program Evaluations

In 32 evaluation reports, which covered all 32 Medicare fiscal intermediaries and carriers,
PricewaterhouseCoopers identified a total of 92 gaps. The number of gaps per contractor ranged
from 0 to 11 and averaged 3. The most gaps occurred in the following FISMA control areas:

   •   testing of information security controls (21 gaps at 14 contractors),
   •   continuity-of-operations planning (21 gaps at 12 contractors),
   •   security programs and system security plans (16 gaps at 14 contractors),
   •   security awareness training (10 gaps at 7 contractors), and
   •   policies and procedures to reduce risk (9 gaps at 7 contractors).

For some of the FISMA control areas, we noted observations that resulted in the reporting of
duplicate gaps at contractor sites. In the 32 evaluations, there were 22 gaps that affected more
than one control area at a contractor site. Even though these gaps corresponded to multiple
control areas, they were only counted once. These gaps were not included in the gap count
above for the Medicare contractors.

Overall, the number of gaps reported in FY 2005 evaluation reports was significantly lower than
in FY 2004. In FY 2005, 92 gaps were reported in comparison to the 217 gaps reported in
FY 2004. Additionally, in FY 2005, nine contractors were reported as having no gaps and only
two contractors had more than seven gaps. In FY 2004, only three contractors were reported as
having no gaps and two contractors had more than 16 gaps. No contractors in FY 2005 had more
than 11 gaps.

Results of Data Center Technical Assessments

The 14 individual Medicare data center technical assessment reports prepared by JANUS
identified a total of 23 gaps for all 14 data centers. The number of gaps reported per data center
ranged from zero to five and averaged two. The security gaps occurred in the following security
control categories:


                                                ii
       •   configuration management (seven gaps at five data centers);
       •   contingency planning (three gaps at two data centers);
       •   system and information integrity (three gaps at three data centers);
       •   access control (two gaps at one data center);
       •   incident response (two gaps at one data center);
       •   media protection (two gaps at two data centers);
       •   security planning (two gaps at two data centers);
       •   audit and accountability (one gap at one data center); and
       •   certification, accreditation, and security assessments (one gap at one data center).

Additionally, JANUS identified 16 gaps that were resolved and closed within an approximate
1- to 2-month timeframe. These gaps were not included in the above gap count.

We did not perform a detailed comparison of the number of gaps identified within each security
control category for the 2 FYs because of significant changes in the scope and assessment
categories reviewed by JANUS in FY 2005. The FY 2004 review was more technical and
included extensive hands-on testing. Many more gaps were found in FY 2004.

RECOMMENDATION

We recommend that CMS review contractor documentation related to future data center
technical assessments and ensure that contractor documentation complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that appointed
contractors have specified the testing procedures to be performed and a review of contractor
working papers to verify that reported weaknesses have been adequately supported, identified,
and included in the technical assessment reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, CMS concurred with our recommendation. CMS also
provided clarifying information on technical issues. We have included CMS’s comments in
Appendix D.

We modified our report where appropriate to respond to CMS’s technical comments. CMS
actions planned or taken should improve the effectiveness of information security controls
maintained by contractors that determine and make Medicare claims payments.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION..................................................................................................................1

          BACKGROUND .........................................................................................................1
              The Medicare Program ......................................................................................1
              Medicare Prescription Drug, Improvement, and Modernization Act ................1
              Evaluation Process for Fiscal Year 2005 ...........................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.....................................................2
              Objectives ..........................................................................................................2
              Scope..................................................................................................................2
              Methodology ......................................................................................................3

RESULTS OF REVIEW .......................................................................................................3

          ASSESSMENT OF SCOPE AND SUFFICIENCY ....................................................3

          RESULTS OF CONTRACTOR INFORMATION SECURITY PROGRAM
           EVALUATIONS ......................................................................................................4
              Testing of Information Security Controls ..........................................................5
              Continuity-of-Operations Planning....................................................................6
              Security Programs and System Security Plans ..................................................7
              Security Awareness Training.............................................................................7
              Policies and Procedures To Reduce Risk...........................................................8

          RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS .............................9
              Configuration Management .............................................................................10
              Contingency Planning......................................................................................11
              System and Information Integrity ....................................................................12
              Access Control .................................................................................................12
              Incident Response ............................................................................................12
              Media Protection..............................................................................................12
              Security Planning .............................................................................................13

          CONCLUSION..........................................................................................................13

          RECOMMENDATION .............................................................................................13

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
           AND OFFICE OF INSPECTOR GENERAL RESPONSE....................................14




                                                                    iv
APPENDIXES

   A – LIST OF GAPS BY FEDERAL INFORMATION SECURITY MANAGEMENT
        ACT CONTROL AREA AND CONTRACTOR

   B – RESULTS OF EVALUATIONS FOR CONTROL AREAS WITH THE GREATEST
        NUMBER OF GAPS

   C – LIST OF GAPS BY SECURITY CONTROL AREA AND DATA CENTER

   D – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                v
                                             INTRODUCTION

BACKGROUND

The Medicare Program

Medicare is a health insurance program for people age 65 or older, people under age 65 with
certain disabilities, and people of all ages with end-stage renal disease. In fiscal year (FY) 2005,
Medicare paid more than $332 billion on behalf of nearly 42 million program beneficiaries.

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program. CMS
contracts with fiscal intermediaries and carriers to administer Medicare benefits paid on a fee-
for-service basis. Many intermediaries and carriers operate data centers to process and pay
Medicare claims, while others subcontract with data centers for this purpose.

In FY 2005, 32 distinct corporate entities served as fiscal intermediaries, carriers, or both. Ten
of these entities also operated 10 of the 14 Medicare data centers, and 4 additional entities
operated the remaining 4 data centers. Thus, a total of 36 entities processed and paid Medicare
fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) added
information security requirements for intermediaries and carriers 1 to section 1874A of the Social
Security Act (the Act). (See 42 U.S.C. § 1395kk-1.) Pursuant to section 1874A(e)(1) of the Act,
each intermediary and carrier must have its information security program evaluated annually by
an independent entity. This section requires that these evaluations address the eight major
requirements enumerated in the Federal Information Security Management Act (FISMA). (See
44 U.S.C. § 3544(b).) These requirements, referred to as “FISMA control areas” in this report,
are:

        1. periodic risk assessments,
        2. policies and procedures to reduce risk,
        3. security programs and system security plans,
        4. security awareness training,
        5. testing of information security controls,
        6. remedial actions to address deficiencies,
        7. incident response, and
        8. continuity-of-operations planning.

Section 1874A(e)(2)(A)(ii) requires that the effectiveness of information security controls be
tested for an appropriate subset of Medicare contractors’ information systems. However, this

1
 The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with Medicare Administrative Contractors, who are to be competitively selected. Until such time as the
new Medicare Administrative Contractors are in place, the requirements of section 1874A apply to fiscal
intermediaries and carriers.


                                                         1
section does not specify the criteria for evaluating these security controls. CMS and its
information security consultant, JANUS Associates, Inc., (JANUS), developed a vulnerability
testing methodology to comply with this provision.

Additionally, section 1874A(e)(2)(C)(ii) requires the Inspector General of the Department of
Health and Human Services to submit to Congress annual reports on the results of such
evaluations, including assessments of their scope and sufficiency. This report fulfills that
responsibility for FY 2005.

Evaluation Process for Fiscal Year 2005

CMS developed agreed-upon procedures for the program evaluation based on the requirements
of Section 1874A(e)(1), FISMA, information security policy and guidance from the Office of
Management and Budget and the National Institute of Standards and Technology (NIST), and the
Government Accountability Office’s (GAO) “Federal Information Systems Controls Audit
Manual” (FISCAM). The independent auditors, PricewaterhouseCoopers (PWC), under contract
with CMS used the agreed-upon procedures to evaluate the information security programs at the
32 fiscal intermediaries and carriers. The agreed-upon procedures are the same as those used in
FY 2004, with the exception of having more explicit criteria for change management. PWC
performed evaluations and issued reports for the 32 fiscal intermediaries and carriers.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
contracted with JANUS to plan, develop, and implement a comprehensive program to perform
testing of security.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

Scope

We evaluated the FY 2005 results of independent evaluations and technical assessments of
Medicare contractors’ information security programs. We performed our reviews of PWC and
JANUS working papers at CMS headquarters in Baltimore, Maryland, and at Office of Inspector
General regional office sites.




                                                2
Methodology

To accomplish our objectives, we performed the following steps:

       •   To assess the scope of the evaluations of contractor information security programs,
           we determined whether the agreed-upon procedures included the eight FISMA
           control requirements.

       •   To assess the scope of the data center technical assessments, we compared the scope
           of work with NIST and GAO standards and guidelines. We also contacted CMS to
           request the contract or task order between CMS and JANUS to verify that JANUS
           performed the work CMS had specified.

       •   To assess the sufficiency of the evaluations of contractor information security
           programs, we reviewed PWC working papers supporting the evaluation reports to
           determine whether auditors conducted the agreed-upon procedures listed in the
           reports. We also determined whether auditors conducted the evaluations in
           accordance with attestation engagement standards established by the American
           Institute of Certified Public Accountants and in accordance with Government
           Auditing Standards, and we compared the scope of work with applicable NIST
           standards. In addition, we determined whether the evaluation reports encompassed
           the eight FISMA control areas enumerated in Section 1874A(e)(1) of the Act.

       •   Because section 1874A(e)(2)(ii) does not include criteria for assessing the sufficiency
           of the data center technical assessments, we reviewed working papers supporting the
           assessments to verify that reported results were reasonably supported.

       •   To report on the results of the evaluations and technical assessments, we aggregated
           the results contained in the individual contractor evaluation reports and data center
           technical assessment reports.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                   RESULTS OF REVIEW

ASSESSMENT OF SCOPE AND SUFFICIENCY

The scope and sufficiency of the contractor information security program evaluations performed
by PWC adequately encompassed the eight FISMA requirements referenced in section
1874A(e)(1) of the Act.




                                                3
While CMS’s contract with JANUS provided for the planning, development, and implementation
of a comprehensive program to perform testing of security, we could not determine the scope and
sufficiency of the work performed for the data center technical assessments because we could not
determine the extent of JANUS’s work.

During our review of the data center technical assessments, CMS provided us with copies of a
task order and a contract governing JANUS’s work at the data centers. However, the
documentation supplied by JANUS did not provide evidence of the testing procedures that were
performed at the data centers. We determined that the working papers lacked test plans of work
performed. In cases in which test plans were provided, initials of the testing officials, indicating
completion of the testing, were not provided for all listed procedures. Also, cross-references to
supporting documentation were missing for many test procedures.

RESULTS OF CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

We present the results of the contractor information security program evaluations in terms of
gaps, that is, the differences between FISMA or CMS core security requirements and the
contractors’ implementation of those requirements.

The 32 evaluation reports identified a total of 92 gaps. The average number of gaps per
contractor was three. As shown in Table 1, the number of gaps per contractor ranged from 0 to
11.

                         Table 1: Range of Medicare Contractor Gaps

                                       No. of       No. of
                                       Gaps       Contractors
                                          0           9
                                          1           7
                                       2 to 5         8
                                       6 to 7         6
                                          8           1
                                         11           1

The number of gaps reported in FY 2005 evaluation reports was significantly lower than in
FY 2004.

Table 2 summarizes the gaps found in each FISMA control area. At some contractor sites,
duplicate gaps were reported among these areas. In the 32 evaluations, there were 22 gaps that
affected more than one control area at a contractor site. Even though these gaps corresponded to
multiple control areas, they were only counted once. Appendix A shows the number of gaps at
each contractor by FISMA control area.




                                                 4
      Table 2: Gaps by Federal Information Security Management Act Control Area

                                        Impact Level                            No. of Contractors
                                         of FISMA             No. of Gaps       With One or More
                 FISMA                  Control Area           Identified             Gap(s)
              Control Area              Subcategories     FY 2004    FY 2005   FY 2004     FY 2005
    Testing of information security
                                        High/Medium         18         21         12         14
      controls
    Continuity-of-operations planning   High                57         21         21         12
    Security programs and system
                                        High/Medium         46         16         21         14
      security plans
    Security awareness training         High/Medium         25         10         16          7
    Policies and procedures to reduce
                                        High/Medium         27          9         21          7
      risk
    Periodic risk assessments           High/Medium         11          6         10          5
    Incident response                   High                25          6         15          5
    Remedial actions                    Medium               8          3          7          2
     Total                                                 217         92

The number of gaps and the number of contractors with gaps reported for FY 2005 was
significantly lower than in FY 2004 for seven of the eight FISMA control areas. The FY 2005
report shows that only one FISMA control area, testing of information security controls, slightly
increased in both categories from the numbers reported in FY 2004.

The Medicare contractor information security program evaluations assessed several
subcategories within each FISMA control area. The “impact level” shown in Table 2 refers to
the possible level of adverse impact that could result from successful exploitation of
vulnerabilities in any of the FISMA control areas by subcategory depending on the
organization’s mission and criticality and the sensitivity of the systems and data involved. CMS
and independent auditors developed ratings of high, medium, or low impact to assign to the
subcategories of the FISMA control areas. The actual ratings assigned to the subcategories were
all high or medium impact and reflect PWC’s assessment. It is important to note that the impact
levels were assigned to subcategories of the FISMA control areas, not to individual gaps
identified within the control areas or subcategories. Individual gaps were not assigned an impact
or risk level. As stated in NIST Special Publication (SP) 800-42, “Guideline on Network
Security Testing,” it is difficult to identify the risk level of individual vulnerabilities because
they rarely exist in isolation.

The following sections discuss the five FISMA control areas containing the most gaps. (See
Appendix B for more detailed information by subcategory.)

Testing of Information Security Controls

According to the NIST SP 800-53, “Recommended Security Controls for Federal Information
Systems,” the effectiveness of information security policies, procedures, practices, and controls
should be tested and evaluated at least annually (or more often depending on risk). The NIST



                                                      5
SP 800-42 notes that security testing provides insight into other system development life-cycle
activities, such as risk analysis and contingency planning.

Of the 32 Medicare contractors, 18 had no identified gaps in the testing of information security
controls, and the remaining 14 had one to two gaps each. In total, 21 gaps were identified in this
area. Of these 21 gaps, 18 were assigned to high-impact subcategories.

Following are examples of these gaps:

   •   Reviews and audits of information technology (IT) security controls, including logical
       and physical controls, platform configuration standards, and patch management controls,
       were not completed to ensure compliance with FISMA guidance.

   •   Identified weaknesses within the organization were not all clearly tracked, monitored, or
       corrected.

   •   Change management policies and procedures did not exist.

Without a comprehensive program for periodically testing and monitoring of information
security controls, management has no assurance that appropriate safeguards are in place to
adequately mitigate identified risks.

Continuity-of-Operations Planning

According to the NIST SP 800-34, “Contingency Planning Guide for Information Technology
Systems,” contingency planning represents a broad scope of activities designed to sustain and
recover critical information technology services following an emergency. The planning guide
provides that ensuring continuity of operations goes beyond contingency planning to include
physical security and environmental controls, which are crucial in preventing outages of service.

Of the 32 Medicare contractors, 20 had no identified gaps in continuity-of-operations planning,
and the remaining 12 had one to four gaps each. In total, 21 gaps were identified in this area,
which were all assigned to high-impact subcategories.

Following are examples of physical and environmental security gaps that could affect continuity
of operations:

   •   Employee access to restricted areas was not monitored.

   •   A sprinkler system was not installed where information technology resources were
       located.

   •   The walls of the data center did not extend to the ceiling.

   •   Equipment facilitating communication to the servers was located in an unsecured area.



                                                 6
Another frequently occurring deficiency was inadequate review and testing of contingency plans.
The purpose of testing these plans is to identify planning gaps to improve plan effectiveness and
overall agency preparedness.

The NIST SP 800-34 notes that if contingency planning activities are inadequate, even relatively
minor interruptions of service can result in lost or incorrectly processed data, which can cause
financial losses, expensive recovery efforts, and inaccurate or incomplete financial or
management information.

Security Programs and System Security Plans

The NIST SP 800-18, “Guide for Developing Security Plans for Information Technology
Systems,” states that the purpose of the system security plan is to provide an overview of a
system’s security requirements and to describe the controls in place or planned for meeting those
requirements. The system security plan documents the structured process of planning adequate,
cost-effective security protection for a system. The plan must include sections on personnel
security controls and security awareness and training requirements. The system security plan
and the staff who prepare the plan form the backbone of an organization’s information security
program.

Of the 32 Medicare contractors, 18 had no identified gaps in security programs and system
security plans, and the remaining 14 had one to three gaps each. In total, 16 gaps were identified
in this area. Nine of these sixteen gaps were assigned to high-impact subcategories.

Following are examples of gaps in security programs and system security plans:

   •   Assessments of the appropriateness and tests of the compliance with security policies and
       procedures were not documented.

   •   Background investigations were not conducted for all employees.

   •   Employee training policies and procedures were not enforced or monitored.

   •   Procedures for termination and transfer of employees did not address security.

If complete, up-to-date, documented system security requirements are not implemented and
enforced within security programs, management has no assurance that established system
security controls will be effective in protecting their most valuable assets, such as information,
hardware, software, systems, and related technology assets that support the organization’s critical
missions.

Security Awareness Training

The Computer Security Act of 1987 (P.L. 100-235) requires periodic training in computer
security awareness and accepted computer practices for all employees who manage, use, or



                                                7
operate Federal computer systems. Additionally, Federal regulations (5 C.F.R. § 930.301(a))
require that role-specific training be provided based on each user’s security responsibilities.

Of the 32 Medicare contractors, 25 had no identified gaps in security awareness training, and the
remaining 7 had one to two gaps each. In total, 10 gaps were identified in this area. Three of
these ten gaps were assigned to high-impact subcategories.

Following are examples of security awareness training gaps:

   •   Mandatory annual refresher training on security was not provided.

   •   Documentation did not exist that all employees had received and accepted the rules of
       behavior requirements for their jobs.

   •   Employee training and professional development regarding security were not consistently
       documented and monitored.

   •   Security professionals were not provided specific security training for their job
       responsibilities.

Employees who are unaware of their security responsibilities and/or have not received adequate
training may be at increased risk of causing or exacerbating a computer security incident. If
security personnel are not provided specific job-related training, management has no assurance
that these employees can effectively perform their job responsibilities. Inadequately trained
employees could cause the loss, destruction, or misuse of sensitive Federal data assets.

Policies and Procedures To Reduce Risk

According to the NIST SP 800-30, “Risk Management Guide for Information Technology
Systems,” risk management is the process of identifying and assessing risk and taking steps to
reduce risk to an acceptable level.

Of the 32 Medicare contractors, 25 had no identified gaps in policies and procedures to reduce
risk, and the remaining 7 had one to two gaps each. In total, nine gaps were identified in this
area. Four of these nine gaps were assigned to high-impact subcategories. Following are
examples of gaps in policies and procedures to reduce risk:

   •   Security policies and procedures did not address security configurations or patch
       management.

   •   Periodic review of system/network boundaries was incomplete because of limited
       penetration testing.

   •   IT security risk assessment was not sufficiently documented.




                                                 8
Ineffective policies and procedures to reduce risk could jeopardize an organization’s ability to
perform its mission, as well as its IT assets.

RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS

We present the results of the data center technical assessments in terms of gaps, that is, the
differences between FISMA or CMS core security requirements and the contractors’
implementation of those requirements.

The 14 individual Medicare data center technical assessment reports identified a total of 23 gaps
for the 14 data centers. The average number of gaps per data center was 2. As shown in Table 3,
the number of gaps per data center ranged from 0 to 5.

                              Table 3: Range of Data Center Gaps

                               No. of Gaps           No. of Data Centers
                                    0                         5
                                    1                         3
                                    2                         1
                                    3                         3
                                    4                         1
                                    5                         1

CMS contracted with JANUS to evaluate six security control areas. The security control areas
were: security planning, contingency planning, configuration management, system and
information integrity, audit and accountability, and risk assessment. During the course of the
review, JANUS expanded these 6 categories to 12 categories. However, this report does not
discuss two of these additional areas (personnel security and system services and acquisition)
because no open gaps existed in these areas among the data centers and they were not part of the
contract requirements.

The number of gaps reported in FY 2005 was significantly lower than in FY 2004. However, we
did not perform a detailed comparison of the number of gaps identified within each security
control category for the 2 FYs because of the significant changes in the scope and assessment
categories reviewed by JANUS in FY 2005. The FY 2004 review was more technical and
included extensive hands-on testing, such as penetration testing.

JANUS assigned each of the gaps to 1 of 10 security control areas. Unlike the information
security evaluations, for the data center assessments, JANUS categorized the risks associated
with the individual gaps as high, medium, or low based on the potential impact and likelihood of
exploitation. Table 4 presents the aggregate results reported for the 14 data centers, including
the number of data centers with high-risk gaps. Appendix C shows the number of gaps at each
data center by security control area.




                                                 9
                      Table 4: Data Center Gaps by Security Control Area

                                          No. of      No. of Data     No. of Data        No. of Data
                           Total No.      Data         Centers       Centers With         Centers
    Security Control        of Gaps      Centers      With High-       Medium-           With Low-
           Area            Identified    Affected     Risk Gaps       Risk Gaps          Risk Gaps
 Configuration
                               7             5             0                4                2
 management
 Contingency planning          3             2             1                0                1
 System and information
                               3             3             0                1                2
 integrity
 Access control                2             1             0                0                1
 Incident response             2             1             0                1                0
 Media protection              2             2             0                0                2
 Security planning             2             2             0                0                2
 Audit and
                               1             1             0                1                0
 accountability
 Certification,
 accreditation, and            1             1             0                1                0
 security assessments
 Risk assessment               0             0             0                0                0
   Total                      23

In the technical assessment reports, JANUS identified 2 gaps under security control areas
assessed as high risk and 10 gaps under security control areas assessed as medium risk. At 1 of
the 14 data centers, JANUS identified two high-risk gaps in the contingency planning control
area. At six of the data centers, JANUS identified medium-risk gaps in at least one of the
following categories: configuration management; system and information integrity; incident
response; audit and accountability; and certification, accreditation, and security assessments.

Additionally, there were 16 gaps identified that were resolved and closed within approximately
1 to 2 months of discovery. These gaps were not included in the above gap count.

The following sections discuss the seven security control areas containing the most gaps. We do
not discuss the three security control areas with the fewest gaps (audit and accountability;
certification, accreditation, and security assessments; and risk assessment) in this report.

Configuration Management

Multiple gaps were identified at 5 of the 14 data centers in the area of configuration
management. Examples are listed below:

   1. Lack of configuration management policies and baseline configurations.

       GAO’s FISCAM indicates that without proper configuration management, security
       features could accidentally or intentionally be “turned off.” In addition, processing


                                                 10
       irregularities or malicious code could be introduced that might allow access to sensitive
       data or remote control of a system. The NIST SP 800-70, “Security Configuration
       Checklists Program for IT Products,” identifies the use of baseline configurations as a
       way to provide a consistent approach to systems security and help protect against
       “common and dangerous local and remote threats” (section 2.2).

       Of the 14 data centers, 1 did not have a configuration management policy and 2 lacked
       baseline configurations. Of those lacking baseline configurations, one data center did not
       have baseline configurations for its networking equipment. Similarly, another data center
       did not use security checklists to configure its information system products to a specific
       baseline.

   2. Use of live data in a test environment.

       GAO’S FISCAM states that live data should not be used in testing. The test environment
       should remain isolated from the live data. The use of live data for testing can severely
       compromise the data’s confidentiality. Of the 14 data centers, 2 were using live data in a
       test environment.

   3. Failure to test security controls after changes were performed.

       The NIST SP 800-53 recommends testing controls and conducting a security impact
       analysis after performing changes. Of the 14 data centers, 1 did not test security controls
       after performing changes, making it difficult to ensure that system security was still
       functioning properly.

   4. Lack of software to monitor changes.

       According to GAO’s FISCAM, library management software provides an automated
       means of inventorying software, ensuring that differing versions are not accidentally
       misidentified, and maintaining a record of software changes. Library management
       software should be used to automatically produce audit trails of program changes,
       maintain program version numbers, record and report program changes, maintain creation
       date information for production modules, maintain copies of previous versions, and
       control concurrent updates.

       Of the 14 data centers, 1 did not use library management software to monitor changes.
       That data center was not able to automatically produce audit trails of changes to software
       configurations.

Contingency Planning

According to the NIST SP 800-34, without complete and up-to-date contingency plans, the data
centers cannot be assured that their systems can be quickly and effectively recovered after
disasters or disruptions in service.




                                                11
Of the 14 data centers, 2 had control gaps in the area of contingency planning. Examples
included insufficient allocation of time to perform disaster recovery exercises and out-of-date
contingency plans that failed to address changes made in operating systems.

System and Information Integrity

The NIST SP 800-53 indicates that the use of tools, such as an intrusion detection system, helps
to prevent attacks on systems and detect their unauthorized use.

Of the 14 data centers, 3 had gaps in system and information integrity. These gaps were due to a
lack of intrusion detection systems. The presence of such gaps makes it more difficult to protect
system and information integrity.

Access Control

According to GAO’s FISCAM, inadequate access controls diminish the reliability of
computerized data and increase the risk of destruction or inappropriate disclosure of data.
Associated gaps in the configuration of systems software that control access to systems can make
computers vulnerable to unauthorized access.

Of the 14 data centers, 1 had gaps in access control. Examples included the use of an identical
identification for both administrative and routine tasks, as well as documented password controls
that were inconsistent with implemented controls. These control gaps created vulnerabilities in
the confidentiality and integrity of Medicare data and systems.

Incident Response

The NIST SP 800-61 “Computer Security Incident Handling Guide,” emphasizes that members
of an incident response team require a broad knowledge of IT and an understanding of how to
use computer forensic tools and software. This guidance also notes that unless forensic evidence
is preserved, it will not be available for future legal proceedings.

Of the 14 data centers, 1 had not provided incidence response training and lacked policies and
procedures for the preservation of forensic evidence. The presence of these gaps created
vulnerabilities in incident response.

Media Protection

According to GAO’s FISCAM, media containing sensitive information that is not sanitized may
be recovered and the information inappropriately used or disclosed by individuals who have
access to the discarded or transferred media. The unauthorized access to personally identifiable
information contained in the Medicare databases could result in a serious adverse effect, with
widespread impact on individual privacy being of specific concern.




                                                12
Of the 14 data centers, 2 had gaps in media protection. Both of these data centers had control
gaps involving a failure to sanitize storage media. These control gaps indicate vulnerabilities
that could lead to the disclosure of sensitive Medicare information.

Security Planning

According to GAO’s FISCAM, to implement an effective security plan, top management should
adjust security plans in accordance with changing risk factors because policies and procedures
may become inadequate after changes in operations.

Also, the NIST SP 800-53 requires that data centers upgrade their security plans after the
installation of a new operating system. After such a change, the data center should update its
risk assessment, determine what additional security controls and/or control enhancements may be
necessary to address the vulnerabilities of the new system, and update its security plan
accordingly.

Of the 14 data centers, 2 had gaps in security planning. Gaps at both data centers were due to
outdated system security plans. One of these two data centers did not upgrade its system security
plan even after the installation of a new operating system. These control gaps create
vulnerabilities in security planning that could negatively impact overall planning for business
continuity.

CONCLUSION

The work performed by PWC to evaluate contractor information security programs adequately
encompassed the eight FISMA requirements referenced in section 1874A. Gaps reported during
the PWC program evaluations were supported by documented evidence.

However, we could not determine the scope or sufficiency of the work performed by JANUS
during the data center technical assessments. The documentation supplied by JANUS did not
provide evidence of the testing procedures performed at the data centers. Because of the lack of
test plans, missing cross-references to supporting documentation, and incomplete working
papers, we could not determine the extent of JANUS’s work.

RECOMMENDATION

We recommend that CMS review contractor documentation related to future data center
technical assessments and ensure that contractor documentation complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that appointed
contractors have specified the testing procedures to be performed and a review of contractor
working papers to verify that reported weaknesses have been adequately supported, identified,
and included in the technical assessment reports.




                                                13
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments to our draft report, CMS concurred with our recommendation. CMS also
provided clarifying information on technical issues. We have included CMS’s comments in
Appendix D.

We modified our report where appropriate to respond to CMS’s technical comments. CMS
actions planned or taken should improve the effectiveness of information security controls
maintained by contractors that determine and make Medicare claims payments.




                                              14
APPENDIXES
                                                                                           APPENDIX A


                                   LIST OF GAPS BY
             FEDERAL INFORMATION SECURITY MANAGEMENT ACT CONTROL AREA
                                  AND CONTRACTOR

                                                      Control Area
                             Policies     Security
                               and       Programs
               Periodic     Procedures      and       Security   Testing                          Continuity
Medicare         Risk       To Reduce     Security   Awareness      of      Remedial   Incident      of
Contractor    Assessments      Risk        Plans      Training   Controls    Actions   Response   Operations   Total
    1              0            0            0           0          0           0         0           0          0
    2              0            0            1           0          0           0         0           0          1
    3              0            0            0           0          0           0         0           0          0
    4              0            0            0           0          0           0         0           0          0
    5              2            1            1           0          0           0         0           1          5
    6              0            0            0           0          0           0         0           0          0
    7              0            0            0           0          0           0         0           0          0
    8              0            2            1           2          2           1         0           3         11
    9              0            0            0           0          0           0         0           0          0
   10              0            0            0           0          0           0         0           1          1
   11              0            0            1           0          0           0         0           0          1
   12              0            0            0           1          0           0         0           1          2
   13              0            1            1           0          2           0         0           2          6
   14              0            0            0           0          0           0         0           0          0
   15              0            1            0           1          1           0         0           1          4
   16              0            1            0           0          0           0         0           0          1
   17              0            0            0           0          2           0         1           0          3
   18              0            0            0           0          0           0         0           0          0
   19              0            0            0           0          0           0         0           0          0
   20              1            0            1           0          2           0         1           1          6
   21              1            0            0           0          0           0         1           0          2
   22              1            0            1           2          1           0         0           2          7
   23              1            0            1           2          1           0         0           2          7
   24              0            0            1           0          1           0         0           0          2
   25              0            0            0           0          1           0         0           0          1
   26              0            0            1           0          0           0         0           0          1
   27              0            0            3           1          2           0         0           1          7
   28              0            2            1           0          2           0         0           0          5
   29              0            0            1           0          2           2         1           2          8
   30              0            0            1           0          0           0         0           0          1
   31              0            1            0           1          1           0         0           0          3
   32              0            0            0           0          1           0         2           4          7
  Total            6            9           16          10         21           3          6         21         92
                                                                                     APPENDIX B
                                                                                       Page 1 of 6


              RESULTS OF EVALUATIONS FOR CONTROL AREAS WITH
                       THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 5 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
Federal Information Security Management Act (FISMA) control areas. It is important to note
that the impact levels were assigned to subcategories of the FISMA control areas, not to
individual gaps identified within the control areas or subcategories. Individual gaps were not
assigned an impact or risk level. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved.
Independent auditors assigned a rating of high or medium impact to each of the subcategories in
the agreed-upon procedures developed by the Centers for Medicare & Medicaid Services (CMS).

TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations assessed five subcategories
related to the testing of information security controls. The evaluation reports identified a total of
21 gaps in this FISMA control area. The five subcategories in Table 1 are listed based on their
order of presentation in the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53, “Recommended Security Controls for Federal Information Systems,” a
major source of criteria in this control area.

The columns “No. of Gaps” and “No. of Contractors Affected” are the same because the gaps are
counted by subcategory and there can be only one gap per subcategory for each contractor. The
column “No. of Contractors Affected” represents a duplicated count.
                                                                          APPENDIX B
                                                                            Page 2 of 6

        Table 1: Gaps Related to Testing of Information Security Controls

                                                           No. of
                                                No. of   Contractors   Subcategory
                   Subcategory                  Gaps      Affected     Impact Level
    Management reports exist for the review
    and testing of information security
    policies and procedures, including
1   network risk assessments, accreditations      0          0            High
    and certifications, internal and external
    audits, security reviews, and penetration
    and vulnerability assessments.
    Annual reviews and audits are conducted
    to ensure compliance with FISMA
    guidance from the Office of Management
    and Budget for reviews of security
2                                                 6          6            High
    controls, including logical and physical
    security controls, platform configuration
    standards, and patch management
    controls.
    Remedial action is being taken for issues
3                                                 3          3           Medium
    noted in audits.
    Change control management procedures
4                                                 2          2            High
    exist.
    Change control procedures are tested by
5   management to ensure that they are in        10          10           High
    use.
     Total                                       21
                                                                                   APPENDIX B
                                                                                     Page 3 of 6

CONTINUITY-OF-OPERATIONS PLANNING

The Medicare contractor information security program evaluations assessed 13 subcategories
related to continuity-of-operations planning. The evaluation reports identified a total of 21 gaps
in this FISMA control area. The 13 subcategories in Table 2 are listed based on their order of
presentation in the NIST SP 800-34, “Contingency Planning Guide for Information Technology
Systems,” the source of criteria in this area.

                      Table 2: Continuity-of-Operations Planning Gaps

                                                        No.    No. of    Subcategory
                                                         of  Contractors   Impact
                          Subcategory                   Gaps  Affected      Level
          Critical data and operations are formally
      1                                                   1           1             High
          identified and prioritized.
          Hardware maintenance, problem
          management, and change management
      2                                                   4           4             High
          procedures exist to help prevent
          unexpected interruptions.
          Data and program backup procedures
      3                                                   2           2             High
          have been implemented.
          Policies and procedures for disposal of
          data and equipment exist and include
      4                                                   2           2             High
          applicable Federal security and privacy
          requirements.
          Physical security controls exist to protect
      5                                                   2           2             High
          information technology resources.
          Adequate environmental controls have
      6                                                   2           2             High
          been implemented.
          Emergency processing priorities have
      7                                                   0           0             High
          been established.
          Resources supporting critical operations
      8                                                   0           0             High
          are identified in contingency plans.
          Arrangements have been made for
      9   alternate data processing and                   1           1             High
          telecommunications facilities.
          An up-to-date contingency plan is
     10                                                   1           1             High
          documented.
     11   The plan is periodically tested.                1           1             High
          The results are analyzed and contingency
     12                                                   4           4             High
          plans adjusted accordingly.
          Staff have been trained to respond to
     13                                                   1           1             High
          emergencies.
           Total                                        21
                                                                                  APPENDIX B
                                                                                    Page 4 of 6

SECURITY PROGRAMS AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 11 subcategories
related to security programs and system security plans. The evaluation reports identified a total
of 16 gaps in this FISMA control area. The 11 subcategories in Table 3 are listed based on their
order of presentation in the NIST SP 800-18, “Guide for Developing Security Plans for
Information Technology Systems,” the source of criteria in this area.

                 Table 3: Security Program and System Security Plan Gaps

                                                       No.    No. of    Subcategory
                                                        of  Contractors   Impact
                        Subcategory                    Gaps  Affected      Level
        A security management structure has
      1                                                  0           0           Medium
        been established.
        Information security responsibilities are
      2                                                  0           0           Medium
        clearly assigned.
        Security policies and procedures are
        included in the policies and procedures
      3 for control of the life cycle of systems,        0           0             High
        including accreditations and
        certifications.
        Owners and users are aware of security
      4                                                  1           1             High
        policies.
        A security plan is documented and
      5                                                  0           0             High
        approved.
      6 The plan is kept current.                        1           1             High
        Management has documented that it
        periodically assesses the appropriateness
      7 of security policies and compliance with         3           3           Medium
        them, including testing of security
        policies and procedures.
        Management ensures that corrective
      8                                                  1           1             High
        actions are effectively implemented.
        Security employees have adequate
      9                                                  3           3             High
        security training and expertise.
        Hiring, transfer, termination, and
     10                                                  3           3             High
        performance policies address security.
        Employee background checks are
     11                                                  4           4           Medium
        performed.
         Total                                          16
                                                                                     APPENDIX B
                                                                                       Page 5 of 6

SECURITY AWARENESS TRAINING

The Medicare contractor information security program evaluations assessed six subcategories
related to security awareness training. The evaluation reports identified a total of 10 gaps in this
FISMA control area. The six subcategories in Table 4 are listed based on their order of
presentation in the NIST SP 800-50, “Building an Information Technology Security Awareness
and Training Program,” the source of criteria in this area.

                         Table 4: Security Awareness Training Gaps

                                                        No.    No. of    Subcategory
                                                         of  Contractors   Impact
                          Subcategory                   Gaps  Affected      Level
          Employees have received a copy of or
      1   have easy access to agency security             0           0            Medium
          procedures and policies.
          Employees have received a copy of the
      2                                                   5           5            Medium
          Rules of Behavior.
          Systematic methods are used to make
      3   employees aware of security, e.g., posters      0           0            Medium
          or booklets.
          Security professionals have received
          specific training for their job
          responsibilities, and the type and
      4                                                   2           2            Medium
          frequency of application-specific training
          provided to employees and contractor
          personnel are documented and tracked.
          Employee training and professional
      5   development have been documented and            0           0            Medium
          formally monitored.
          Annual refresher training for security is
      6                                                   3           3             High
          mandatory.
            Total                                        10
                                                                                    APPENDIX B
                                                                                      Page 6 of 6

POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed six subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of nine
gaps in this FISMA control area. The six subcategories in Table 5 are listed based on their order
of presentation in the NIST SP 800-30, “Risk Management Guide for Information Technology
Systems,” the source of criteria in this area.

             Table 5: Gaps Related to Policies and Procedures To Reduce Risk

                                                       No.    No. of    Subcategory
                                                        of  Contractors   Impact
                          Subcategory                  Gaps  Affected      Level
           Management activities include security
           controls in the costs of developing new
           systems as part of the system
       1                                                 0           0             High
           development life cycle. Procedures for
           software changes include steps to
           control the changes.
           Security policies and procedures
           include controls to address platform
       2                                                 5           5           Medium
           security configurations and patch
           management.
           Systems security controls have been
           tested and evaluated. The
       3                                                 2           2             High
           system/network boundaries have been
           subjected to periodic reviews/audits.
           Management has performed
           accreditations and certifications of
       4   major systems in accordance with              0           0             High
           FISMA policies, including security
           controls testing and documentation.
           Documentation exists that outlines
       5   reducing the risk exposure identified in      2           2             High
           periodic risk assessments.
           Gaps in compliance exist based on a
           comparison of management’s
       6                                                 0           0             High
           compliance checklist and CMS’s core
           security requirements.
            Total                                        9
                                                                                           APPENDIX C


                           LIST OF GAPS BY SECURITY CONTROL AREA
                                      AND DATA CENTER

                                                                                                         Total
                                                                                                         Data
                                                                                                        Centers
                                                                                                         With
    Control        Risk                             Data Center                                Total    Gaps in
     Area          Level    1   2   3   4   5   6     7    8      9   10   11   12   13   14   Gaps    This Area
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
 Configuration    Medium    1   1   1   0   0   2     0    0      0   0    0    0    0    0     5          4
 Management        Low      0   1   0   1   0   0     0    0      0   0    0    0    0    0     2          2
                  TOTAL     1   2   1   1   0   2     0    0      0    0    0    0   0    0      7         5
                   High     0   0   2   0   0   0     0    0      0   0    0    0    0    0     2          1
 Contingency      Medium    0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
  Planning         Low      0   0   0   0   1   0     0    0      0   0    0    0    0    0     1          1
                  TOTAL     0   0   2   0   1   0     0    0      0    0    0   0    0    0     3          2
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
 System and
                  Medium    0   0   0   0   0   0     1    0      0   0    0    0    0    0     1          1
 Information
                   Low      0   0   0   1   0   0     0    0      1   0    0    0    0    0     2          2
   Integrity
                  TOTAL     0   0   0   1   0   0     1    0      1    0    0    0    0   0      3         3
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
                  Medium    0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
Access Control
                   Low      2   0   0   0   0   0     0    0      0   0    0    0    0    0     2          1
                  TOTAL     2   0   0   0   0   0     0    0      0    0    0   0    0    0     2          1
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
   Incident       Medium    2   0   0   0   0   0     0    0      0   0    0    0    0    0     2          1
   Response        Low      0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
                  TOTAL     2   0   0   0   0   0     0    0      0    0    0   0    0    0     2          1
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
    Media         Medium    0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
  Protection       Low      0   0   0   0   1   0     0    1      0   0    0    0    0    0     2          2
                  TOTAL     0   0   0   0   1   0     0    1      0    0    0    0   0    0      2         2
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
   Security       Medium    0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
   Planning        Low      0   1   0   0   1   0     0    0      0   0    0    0    0    0     2          2
                  TOTAL     0   1   0   0   1   0     0    0      0    0    0   0    0    0     2          2
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
  Audit and       Medium    0   0   0   1   0   0     0    0      0   0    0    0    0    0     1          1
Accountability     Low      0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
                  TOTAL     0   0   0   1   0   0     0    0      0    0    0   0    0    0     1          1
 Certification,    High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
 Accreditation,   Medium    0   1   0   0   0   0     0    0      0   0    0    0    0    0     1          1
 and Security      Low      0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
  Assessments     TOTAL     0   1   0   0   0   0     0    0      0    0    0    0    0    0     1         1
                   High     0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
                  Medium    0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
Risk Assessment
                   Low      0   0   0   0   0   0     0    0      0   0    0    0    0    0     0          0
                  TOTAL     0   0   0   0   0   0     0    0      0    0    0   0    0    0     0          0
                   High     0   0   2   0   0   0     0    0      0   0    0    0    0    0     2          1
   GRAND          Medium    3   2   1   1   0   2     1    0      0   0    0    0    0    0     10         6
   TOTAL           Low      2   2   0   2   3   0     0    1      1   0    0    0    0    0     11         6
                  TOTAL     5   4   3   3   3   2     1    1      1    0    0    0   0    0     23         9
APPENDIX D
  Page 1 of 5
APPENDIX D
  Page 2 of 5
APPENDIX D
  Page 3 of 5
APPENDIX D
  Page 4 of 5
APPENDIX D
  Page 5 of 5
